7*rf

D \\

^ ^ LT' ]}

^tatt of Beto §3
BEFORE: HON. EUGENE M. FAHEY,
Associate Judge

THE PEOPLE OF THE STATE OF NEW YORK,
ORDER
DENYING
LEAVE
CLA-2021-00704

Respondent
-against-NOE LOPEZ SUCHITE
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal
Procedure Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated: JUL 0 6 2021

at Buffalo, NY

EUGENE M. FAHEY
Associate Judge/
*Description of Order: Order of the Supreme Court, Appellate Division, Second
Department, entered February 17, 2021, affirming a judgment of the County Court
Rockland County, rendered November 6, 2017.

'^0

A

if^ii

^AatfriAewd'

m Pi
•:. SW?:-rs>@s?

July 6, 2021

Noe Lopez Suchite
#17-A-4608
Green Haven Correctional Facility
P.O. Box 4000
Stormville, NY 12582-4000
Re:

People v Noe Lopez Suchite

Dear Mr. Suchite:
Enclosed you will find a copy of an Order denying your application for
permission to appeal to the Court of Appeals in this case.
Very truly yours

EUGENE M. FAHEY
ASSOCIATE JUDGE
//
NEW YORK STATE COURT OF APPEALS
EMF/mkw
Enclosure
Hon. Thomas E. Walsh
cc:
John R. Lewis, Esq.

9^

SttprcmE (Enurt of tl|e S’tatc of Neui ^ork
AppEllatE Buitsuin: J^Ecnni) SuMtfal BEpartmEnt

D65693
Y/htr

Submitted - January 14,2021

AD3d
REINALDO E. RIVERA, J.P.
COLLEEN D. DUFFY
ANGELA G. IANNACCI
PAUL WOOTEN, JJ.

DECISION & ORDER

2018-12018
The People, etc., respondent,
v Noe Lopez Suchite, appellant.
(Ind. No. 16-00312)
John R. Lewis, Sleepy Hollow, NY, for appellant.

Thomas E. Walsh D, District Attorney, New City, NY (Marissa L. Licata and Jacob
B. Sher of counsel), for respondent.
Appeal by the defendant from a judgment of the County Court, Rockland County
(David S. Zuckerman, J.), rendered November 6, 2017, convicting him of assault in the second
degree, upon a jury verdict, and imposing sentence.
ORDERED that the judgment is affirmed.
Contrary to the defendant’s contention, the trial court properly refused to instruct the
jury on the defense ofjustification. “A person is justified in using deadly force against another ifhe
or she reasonably believes such to be necessary to defend himself or herself or a third person from
what he or she reasonably believes to be the use or imminent use of deadly physical force by such
other person” (.People v Taylor, 150 AD3d 768, 769 [internal quotation marks omitted]; see Penal
Law § 35.15[2][a]). Here, viewing the record in the light most favorable to the defendant (see
People v Sparks, 29 NY3d 932, 934), there is no reasonable view of the evidence that would have
permitted the factfinder to conclude that the defendant’s use of deadly physical force was justified
(see People v Taylor, 150 AD3d at 769; People v Heron, 130 AD3d 754, 755).
The defendant contends that his counsel was ineffective for failing to request an
adverse inference charge based upon the People’s failure to proffer video evidence from a security
Page 1.

February 17, 2021
PEOPLE v SUCHITE, NOE LOPEZ

l~i A

camera allegedly located in the area of the subject incident. However, because the record does not
establish that the police or the prosecution were ever in possession of such alleged video evidence,
the defendant was not entitled to an adverse inference charge (see People v Robinson, 143 AD3d
744; People v Rivera, 126 AD3d 818, 819). Therefore, counsel was not ineffective for failing to
request the charge (see People v Stultz, 2 NY3d 277, 287).
RIVERA, J.P., DUFFY, IANNACCI and WOOTEN, JJ., concur.
ENTER:
</U>
Aprilanne Agostino
Clerk of the Court

Page 2.

February 17, 2021
PEOPLE v SUCHITE, NOE LOPEZ

People v Suchite | WestlawNext

Page 1 of2

WESTLAW
People v Suchite
Supreme Court, Appellate Division, Second Department, New York

February 17, 2021 i 191A.D.3d906

138 N,Y.S,3d 877 (Mem)

20

£-f] New York
'^Official Reports

View National Reporter System version

191 A.D.3d 906,138 N.Y.S.3d 877 (Mem), 2021 N.Y. Slip Op. 01075
*1 The People of the State of New York, Respondent,
v

Noe Lopez Suchite, Appellant.
Supreme Court, Appellate Division, Second Department, New York
16-00312,2018-12018
February 17, 2021

CITE TITLE AS: People v Suchite
HEADNOTES
Crimes
Instructions
Charge for Justified Use of Deadly Physical Force Not Warranted
Crimes
Right to Counsel
Effective Representation
John R: Lewis, Sleepy Hollow, NY, for appellant.
Thomas E. Walsh II, District Attorney, New City, NY (Marissa L. Licata and Jacob B. Sher
of counsel), for respondent.
Appeal by the defendant from a judgment of the County Court, Rockland County (David S.
Zuckerman, J.), rendered November 6, 2017, convicting him of assault in the second
degree, upon a jury verdict, and imposing sentence.
Ordered that the judgment is affirmed.
Contrary to the defendant's contention, the trial court properly refused to instruct the jury on
the defense of justification. “A person is justified in using deadly force against another if he
or she reasonably believes such to be necessary to defend himself or herself or a third
person from what he or she reasonably believes to be the use or imminent use of deadly
physical force by such other person” (People v Taylor, 150 AD3d 768, 769 [2017] [internal
quotation marks omitted]; see Penal Law § 35.15 [2] [a]). Here, viewing the record in the
light most favorable to the defendant (see People v Sparks, 29 NY3d 932, 934 [2017)),
there is no reasonable view of the evidence that would have permitted the factfinder to

https://nextcorrectional.westIaw.com/Document/I23fc42c0714clleb89e4b8a32aeaf093/Vi...

5/17/2021

People v. Suchite | WestlawNext

Page 1 of2

WESTLAW
People v. Suchite
Supreme Court, Appellate Division, Second Department, New York. , February 17, 2021

191 A.D.3d 906 ' 138 N.Y.S.3d 877 (Mem) : 2C

View New York Official Reports version

191A.D.3CI906
Supreme Court, Appellate Division, Second Department, New York.
The PEOPLE, etc., respondent,
v.

Noe Lopez SUCHITE, appellant.
2018-12018
(Ind. No. 16-00312)
Submitted—January 14,2021
February 17, 2021
Attorneys and Law Firms
John R. Lewis, Sleepy Hollow, NY, for appellant.
Thomas E. Walsh M, District Attorney, New City, N.Y. (Marissa L. Licata and Jacob B. Sher
of counsel), for respondent.
REINALDO E. RIVERA, J.P., COLLEEN D. DUFFY, ANGELA G. IANNACCI, PAUL
WOOTEN, JJ.
DECISION & ORDER
Appeal by the defendant from a judgment of the County Court, Rockland County (David S.
Zuckerman, J.), rendered November 6, 2017, convicting him of assault in the second
degree, upon a jury verdict, and imposing sentence.
ORDERED that the judgment is affirmed.
Contrary to the defendant's contention, the trial court properly refused to instruct the jury on
the defense of justification. “A person is justified in using deadly force against another if he
or she reasonably believes such to be necessary to defend himself or herself or a third
person from what he or she reasonably believes to be the use or imminent use of deadly
physical force by such other person" (Peop/e v. Taylor, 150 A.D.3d 768, 769, 53 N.Y.S.3d
702 [internal quotation marks omitted]; see Penal Law § 35.15[2][a]). Here, viewing the
record in the light most favorable to the defendant (see People v. Sparks, 29 N.Y.3d 932,
934, 51 N.Y.S.3d 14, 73 N.E.3d 354), there is no reasonable view of the evidence that
would have permitted the factfinder to conclude that the defendant’s use of deadly physical
force was justified (see People v. Taylor, 150 A.D.3d at 769, 53 N.Y.S.3d 702; People v.
Heron, 130 A.D.3d 754, 755, 13 N.Y.S.3d 243).

https://nextcorrectionaI.westlaw.com/Link/Document/FullText?fmdType=Y&serNum=205... 5/17/2021

People v Suchite | WestlawNext

Page 2 of 2

conclude that the defendant's use of deadly physical force was justified (see People v
Taylor; 150 AD3d at 769; People v Heron, 130 AD3d 754, 755 [2015]).
The defendant contends that his counsel was ineffective for failing to request an adverse
inference charge based upon the People's failure to proffer video evidence from a security
camera allegedly located in the area of the subject incident. However, because the_record
does not establish that the police or the prosecution were ever in possession of such
f“* ’*'***“

....... ..................................

, ..............

' **—

1 ri

|

--

-i, r IT

■ Him ,,(H-iBK II in,,

„-----------------

-................. .|l

■

I ■

~

III

■■ j.____ .

,

I'

'

~

>■1111

|)

I '

alleged video.eyidence. the defendant was not entitled to an adverse inference charge (see
People v Robinson, 143 AD3d 744 [2016]; People v Rivera, 126 AD3d 818, 819 [2015]).
Therefore, counsel was not ineffective for failing to request the charge (see People v Stultz,
2 NY3d 277, 287 [2004]). Rivera, J.P., Duffy, lannacci and Wooten, JJ., concur.
Copr. (C) 2021, Secretary of State, State of New York

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

https://nextcorrectional.westlaw.com/Document/I23fc42c0714cl Ieb89e4b8a32aeaf093/Vi... 5/17/2021

Page 1 of2

^.ecusatory Instrument. com
r

*:
Spring Valley Police Department
Case #: 2016-13753

ACCUSATORY INSTRUMENT
FELONY COMPLAINT -C.P.L 100.15

STATE OF NEW YORK :: COUNTY OF ROCKLAND
SPRING VALLEY VILLAGE COURT
The People of the Stale ofNew York
against
05/21/1988
Noe Lopez-Suchite
Date of Birth
Defendant

FELONY
COMPLAINT

i; Detective Ted Hughes, the complainant herein, of the Spring Valley Police Department, accuse Noe LopezSuchite, of 21 Collins Ave. Spring Valley, New York, the DEFENDANT in these actions, and charge that on or
about the 20th day of August, 2016, at 37-39 Sou th Main St. Spring Valley, New York in the Village of Spring
Valley, County of Rockland, State of New York, at about 4:10 in the forenoon, said DEFENDANT committed the
r-. S'. •
offenses of: M \\ o t' rr\ o -Y ! fi r
\
\r
v,/c yi -; > s
' • n / ) y-r
/• r YY3 c ■
0

) ■■

loc
t&iy «^vr ckj'C
(\ y ■ -i € f C
Law Section:
1) PL 120.10 (1) Assault in the first degree
A person is guilty of assault in the first degree when: 1. With intent to cause serious physical
injury to another person, he causes such injury to such person or to a third person by means of
a deadly weapon or a dangerous instrument.
il

;
!

2) PL 265.01 (2) Criminal possession of a weapon in the fourth degree
A person is guilt^of criminal possession of a weapon in the fourth degree when: (2) He
possesses any dagger, dangerous knife, ui»k, razo*, silky .'imitation piste!, cr any other
dangerous or deadly instrument or weapon with intent to use the same unlawfully against
V another.
To Wit:,
Deponent is informed by Victim Jose R. Hernandez of an address known to the Spring Valley Police Department
that, on the above date, time and location, he observed a man, later determined to be the defendant, Noe Lopezi Suchite, stab him in the left side of his chest with a knife.
Deponent is informed by Spring Valley Police Department Detective Eugene Suarez that he conducted a recorded
interview of the defendant during which the defendant made a full confession regarding the stabbing of the
aforementioned victim and admitted that the knife recovered from his person was the weapon used in the
stabbing.
All contrary to the provisions of the statute in such case made and provided.
That the source of deponent’s information and the grounds of his belief as to all matters herein stated upon
information arid belief are based upon and derived from the annexed affidavit of Victim Jose Hernandez, sworn to
on the 20th day of August, 2016, the personal knowledge of the deponent and The annexed affidavits of Jean
L.Adrien, Abel Monzon, RCSO Officer T.Hendrickson, NYSP Trooper J.Caban and the recorded interview of the
j defendant in which he makes a full confession. <- 0 WHEREFORE I REQUEST THAT CRIMINAL PROCESS BE ISSUED TO COMPEL THE DEFENDANT
TO ANSWER THE AFORESAID ACCUSATION.
NOTE: False statements made herein are punishable as a Class A misdemeanor pursuant to section 210.45 of the
Penal Law of the State of New York.

i
-S

l

https://secure.accusatoryinstrument.com/ai/modules/lettei7mdex.php

8/20/2016

!

)

U.s. DEPARTMENT OF JUSTICE
' EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
IMMIGRATION COURT
121 RED SCHOOLHOUSE ROAD
FISHKILL, NY 12524
Case No.: A216-082-601

In the Matter of:
LOPEZ SUCHITE, NOE
17A4608
RESPONDENT

IN REMOVAL PROCEEDINGS
ORDER OF THE IMMIGRATION JUDGE

Upon the basis of respondent's admissions, I have determined that the
respondent is subject to removal on the charge(s) ;.n the Notice to Appear.
Respondent has made no application for relief from removal.
It is HEREBY ORDERED that the respondent be removed from the United States
to GUATEMALA on the charge (s) contained in the Notice to
Appear.
Any alien against whom a final order of removal is outstanding by reason of
being a member of any of the classes described in INA section 237(a), who
willfully fails or refuses to present himself or herself for removal at the
time and place required by the Attorney General shall be fined and/or
imprisoned for up to ten years. Further, any alien who willfully fails or
refuses to depart from the United States pursuant to a final removal order
or present for removal at the time and place required by the Attorney General
shall pay a civil penalty of not more than 5500 to the Commissioner for each
day the alien is in violation of this section.

KYUNG AUH
Immigratiop^Jpdge
, 2019
Date:
Se1

Appeal; NO APPEAL (A/-I-/-&1
Appee4—Bae—By-* Oot 3/
CERTIFICATE OF SERVICE
PERSONAL SERVICE (P)
THIS DOCUMENT WAS SERVED BY: MAIL (M)
[M] Alien's ATT/REP [P] DHS
TO:
[ ] ALIEN [p] ALIEN c/o Custodial Officer
CLL___
BY:
COURT
STAFF
09/03/19______
DATE:
[ ] Other
(
]
Legal
Services
List
[
]
EOIR-33.....[
]
EOIR-28
Attachments:
Form EOIR 7 - 4T (REMOVAL Order)

LAW OFFICES OF

John R. Lewis
36 HEMLOCK DRIVE
SLEEPY HOLLOW, NEWYORK 10591
Tel. (914) 332-8629
Fax (914) 631-1899
counsellorjrl@aol.com

Jan. 7, 2020
Noe Lopez Suchite
17 A 4608
Green Haven C.F.
P.O. Box 4000
Stormville, NY 12582-4000
Re: People v. Suchite
Dear Mr. Suchite:
Enclosed is a copy of the brief I have written and filed for your appeal. 1 hope you find it
satisfactory.
I know you wanted a copy of the transcript, but that is an expense that the court will not
reimburse me for. HOWEVER: you do have the right to apply to the Court for
permission to file a pro se supplemental brief (which you should file IF you’ve read my
brief and feel that there are things I did not say that you think should be said. )
i f the court grants you this permission, then the Court will provide you with a copy of the
transcripts FREE OF CHARGE.
1 still have the Notice of Motion for permission that you sent to me, but you need to
re-write it and put new dates on it, and maybe include a statement about why you want to
file a supplemental brief that shows that you’ve read MY brief, and still want to file a
supplemental. The Court will want to see evidence that you’re familiar with my brief
before they grant you permission to file a supplemental. So, rewrite your application, and
then file it with the Court within the next 30 days, with proof of service on the D.A., just
like you did it last time. I think the Court will grant your motion this time around.
Feel free to contact me with any questions
Yours,

/?
5?
s'

/^John Lewis

